Case: 19-2720

Filed: 02/19/2021

Document: 45

Pages: 9

3ln fl|c

3$mkh States (Uaiiri of Appeals
3far tl}t jgfeinmtfj (Kirrmt
No. 19-2720

Michael Mejia,
Plaintiff-Appellant,
v.
Randy Pfister, et al,
Defendants-Appellees.

Appeal from the United States District Court for the
Central District of Illinois.
No. l:15-cv-1498 — James E. Shadid, Judge.

Argued December 11,2020 — Decided February 19,2021

Before Rovner, Hamilton, and Scudder, Circuit Judges.
Scudder, Circuit Judge. Illinois inmate Michael Mejia sued
correctional officials in federal court challenging his filthy cell
conditions and constant hallway lighting that prevented him
from sleeping. His primary claim survived dismissal and later
summary judgment and proceeded to trial, with the jury re­
turning a defense verdict. Six times along the way Mejia asked
the district court to appoint counsel, and each time the court
denied the request. Applying the standards we articulated in

Case: 19-2720

Document: 45

Filed: 02/19/2021

2

Pages: 9

No. 19-2720

Pruitt v. Mote, 503 F.3d 647 (7th Cir. 2007) (en banc)/ the dis­
trict court observed that Mejia, who had experience with the
litigation process from prior cases, demonstrated through his
many filings that he understood his burden of proof and was
fully capable of assembling evidence and marshaling argu­
ments to support his contention that the conditions of confine­
ment within the Pontiac Correctional Center violated the
Eighth Amendment. Seeing no abuse of discretion in the dis­
trict court's rulings, we affirm.
I
A
Mejia alleged that his living conditions in Pontiac were
horrific throughout 2015. He described living in multiple
cells—each infested with insects and covered with blood, fe­
ces, hair, and dirt—and correctional officers declining his re­
quests for cleaning supplies, telling him to make do with the
two ounces of liquid soap he received each week. These un­
sanitary conditions, Meija continued, caused him to develop
red bumps all over his body. And he further contended that
Pontiac's hallway lighting was so bright that it left him sleep
deprived and in time caused depression and memory loss.
Meija made plain in his amended complaint that his regular
protests to Pontiac officials, including to defendants Warden
Randy Pfister, Assistant Warden Guy Pierce, and Correctional
Officer Todd Punke, went ignored. So Mejia turned to federal
court for relief.
Mejia filed his initial complaint in December 2015, invok­
ing 42 U.S.C. § 1983 and alleging that the defendants were de­
liberately indifferent toward the conditions of his confine­
ment in violation of the Eighth Amendment. Accompanying

Case: 19-2720

No. 19-2720

Document: 45

Filed: 02/19/2021

Pages: 9

3

the complaint was a motion for the recruitment of counsel.
The court dismissed Mejia's complaint without prejudice dur­
ing the screening process required by 28 U.S.C. § 1915A and
denied the accompanying request for counsel as moot. Mejia
filed an amended complaint, and this time his Eighth Amend­
ment claim survived § 1915A review.
Mejia submitted his second request for counsel on January
3, 2018, more than a year after the close of discovery, two
months after the district court denied the defendants' motion
for summary judgment, and a few weeks before a final settle­
ment conference. The district court again denied the motion.
Applying the framework from our 2007 en banc decision in
Pruitt, the district court underscored that Mejia, following the
dismissal of his original complaint, "was able to successfully
amend his complaint, obtain needed discovery, and survive
summary judgment with two claims." From there the district
court observed that the "surviving claims are not complex"
and that Mejia, while not having previously represented him­
self during any trial, did have "extensive litigation experi­
ence." Even more, the district court underscored, Mejia "has
demonstrated he is capable of describing his living conditions
and his complaints about those conditions." The district court
further added that Mejia would not find himself unable to
present witness testimony at trial, as his inmate witnesses
would be able to testify by video.
In the ensuing seven months leading to the August 2018
trial, Mejia renewed his request for counsel four more times.
Relying on many of the reasons supporting the earlier denial
of Mejia's second motion, the district court denied each addi­
tional request. At the final pretrial conference, and as part of
denying Mejia's fifth request for counsel, the district court

Case: 19-2720

Document: 45

Filed: 02/19/2021

4

Pages: 9

No. 19-2720

supplemented its prior reasoning by observing that Mejia—
throughout the litigation—"repeatedly demonstrated that he
is capable of describing both his living conditions and his ef­
forts to alert Defendants," while also "demonstrating] his un­
derstanding of his claims, the issues, and the evidence during
the pretrial hearing."
On appeal Mejia challenges at least four of the district
court's denials of his requests for counsel.
II
When reviewing the denial of a prisoner's motion to re­
cruit counsel under 28 U.S.C. § 1915(e)(1) we ask whether "the
indigent plaintiff made a reasonable attempt to obtain counsel
or [has] been effectively precluded from doing so," and, if so,
whether "given the difficulty of the case, ... the plaintiff ap­
peals] competent to litigate it himself." Pruitt, 503 F.3d at 654.
All agree Mejia satisfied the first prong by trying on his own
to retain counsel. Pruitt's second prong considers "whether
the difficulty of the case—factually and legally—exceeds the
particular plaintiff's capacity as a layperson to coherently pre­
sent it to the judge or jury himself." Id. at 655. Our review of
a denial of a motion to appoint counsel proceeds under the
deferential abuse of discretion standard. Id. at 658 (citing
Greeno v. Daley, 414 F.3d 645, 658 (7th Cir. 2005)).
We see no abuse of discretion in any of the rulings Mejia
now challenges. With Mejia not contesting the district court's
denial of his first request to appoint counsel, we turn to the
denial of the second motion. The district court began by in­
voking the Pruitt framework and observing that Mejia had
demonstrated not only his understanding of the factual and

Case: 19-2720

No. 19-2720

Document: 45

Filed: 02/19/2021

Pages: 9

5

legal issues in his case, but also an ability to convey his posi­
tions with clarity.
The district court then proceeded to the second half of the
Pruitt analysis and examined the complexity of Mejia's claims,
finding, that they fell on the straightforward end of the spec­
trum. To prevail Mejia needed to establish the unsanitary con­
ditions in his cells, constant hallway lighting that caused sleep
deprivation and related mental harms, and the defendants'
awareness of and inaction in response to either or both of
these alleged conditions. See McCaa v. Hamilton, 959 F.3d 842,
846 (7th Cir. 2020).
The district court summarily incorporated and relied on
the reasoning from its denial of Mejia's second motion in
denying the third, fourth, fifth, and sixth requests for counsel.
At the final pretrial conference, and as part of denying Mejia's
fifth motion, the district court added to its prior analysis that
Mejia had "demonstrated his understanding of his claims, the
issues, and the evidence during the pretrial hearing."
The district court's rulings adhered to the Pruitt frame­
work and reflected a reasonable exercise of discretion. The
district judge had before him a pro se inmate who had showed
himself at every phase of the litigation to be capable of com­
prehending and navigating the litigation process, including
by avoiding dismissal of his amended complaint, adequately
utilizing the discovery process to obtain information from his
adversaries, successfully opposing the defendants' motion for
summary judgment, and ultimately getting his case to trial. In
denying Mejia's requests for counsel, the district court tapped
its unique vantage point—its close proximity to all aspects of
the pretrial proceedings—by drawing upon its firsthand im­
pressions of Mejia's ability to adequately understand and

Case: 19-2720

6

Document: 45

Filed: 02/19/2021

Pages: 9

No. 19-2720

prosecute his claims at each step along the road to trial. This
iterative yet individualized approach to ruling on each of
Mejia's motions aligns with our prescriptions in Pruitt and re­
flects no abuse of discretion by the district court at any step.
In no way do we question that Mejia encountered chal­
lenges representing himself. Take, for example, what tran­
spired during discovery. Mejia failed to comply with the dis­
trict court's scheduling order and submitted only one discov­
ery request, which itself was untimely. But the district court
took steps to remedy this failing by granting Mejia's subse­
quent request (made orally during a status conference) and
ordering the defendants to produce any policy documents ad­
dressing cell sanitation and cleaning. At another point the dis­
trict court ordered the defendants to produce any reports con­
cerning the cleanliness or sanitation of each of Mejia's cells.
On another front, Mejia faced the often challenging task of
marshaling evidence to prove the defendants acted with a cul­
pable state of mind. But in the circumstances presented here,
he showed himself capable of doing so, as he plainly demon­
strated through his filings and performance at the pretrial
conference that he understood and could present evidence on
this element of his claim. And we see nothing in the record
showing that his subsequent transfers to different prisons pre­
vented him from gathering the necessary proof. In the end,
Mejia needed to show that the defendants knew about the
conditions of his confinement and failed to act. See McCaa,
959 F.3d at 846. The district court committed no error in find­
ing that Mejia was capable of shouldering this burden.
Mejia also disagrees with how the district court evaluated
his ability to represent himself at trial. But such disagreement,
absent a "methodological lapse," does not amount to an abuse

Case: 19-2720

No. 19-2720

Document: 45

Filed: 02/19/2021

Pages: 9

7

of discretion. Santiago v. Walls, 599 F.3d 749, 765 (7th Cir.
2010). No such lapse occurred here. The district court cor­
rectly observed that Mejia had an extensive litigation history,
including with at least one prior case going to trial, albeit with
appointed counsel. Mejia had difficulty with the discovery
process, but it was well within the judge's discretion to decide
to overlook his slips and help him rather than try to recruit
counsel. And while Mejia observes that he had never con­
ducted a trial on his own before, that is true for the vast ma­
jority of pro se litigants. The district court grounded its deci­
sion to deny Mejia's request to recruit trial counsel on its ob­
servation (during the pretrial conference) of his ability to com­
prehend and address the facts and issues pertinent to his
Eighth Amendment claim. The court's reliance on these fac­
tors shows no abuse of discretion.
Nor does the fact that some trial witnesses testified by vid­
eoconference change the analysis. To be sure, we have held
that the added complexities of conducting a trial by videocon­
ference may in some instances exceed an inmate's capacity.
See Walker v. Price, 900 F.3d 933 (7th Cir. 2018). But the routine
use of videoconference technology to have two inmate wit­
nesses testify does not compare to the difficulties of conduct­
ing a full trial remotely—the situation in Walker. The district
court did not abuse its discretion in denying Mejia's motions
despite this additional technical component of the trial.
This conclusion eliminates the need to examine fully the
prejudice prong of the Pruitt analysis. We note only that the
standard for prejudice requires more than just a likelihood
that recruited counsel would have performed better than the
pro se litigant, a benchmark that would nearly always be met.
See Jackson v. Kotter, 541 F.3d 688, 701 (7th Cir. 2008)

Case: 19-2720

Document: 45

Filed: 02/19/2021

8

Pages: 9

No. 19-2720

("[^peculating about how counsel might have done a better
job prosecuting the case is neither necessary nor appropriate."
(quoting Johnson v. Doughty, 433 F.3d 1001, 1008 (7th Cir.
2006))). Instead, to show prejudice Mejia must demonstrate
"there is a reasonable likelihood that the presence of counsel
would have made a difference in the outcome of the litiga­
tion." Pruitt, 503 F.3d at 659. Our review of the record—espe­
cially the paucity of evidence supporting Mejia's allegations
of deliberate indifference to his conditions of confinementleaves us confident that he has not carried his burden here.
Ill
Michael Mejia encountered litigation challenges all too of­
ten faced by pro se inmates and understandably asked the dis­
trict court a few times to appoint counsel. And, for its part, the
district court found itself having to make a choice about how
best to allocate scarce resources, for it remains the sad reality
that "there are too many indigent litigants and too few law­
yers willing and able to volunteer for these cases." Olson v.
Morgan, 750 F.3d 708, 711 (7th Cir. 2014). The district court
committed no abuse of discretion in undertaking this difficult
and unfortunate calculus here.
We close by thanking the Washington University School of
Law Appellate Clinic for representing Mejia on appeal. In ad­
dition to the two students who ably briefed this appeal, a
third law student, supervised by the Clinic's director, argued
the case. The students no doubt realized the personal satisfac­
tion and professional enrichment that comes from pro bono
service—from using their legal talent to help someone in
need. Mejia may not have received what he wished for in the
district court, but he should know he was very well repre­
sented on appeal.

Case: 19-2720

Document: 45

Filed: 02/19/2021

No. 19-2720
With these parting observations, we AFFIRM.

Pages: 9

9

l:15-cv-01498-JES-TSH # 104

Page 1 of 8

E-FILED

Monday, 26 August, 2019 03:07:17 PM
Clerk, U.S. District Court, ILCD

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
MICHAEL MEJIA,
Plaintiff,

)
)
)

No. 15-1498

)

VS.

)

JOHN BALDWIN, et. al.,
Defendants

)
)

CASE MANAGEMENT ORDER
This cause is before the Court for consideration of Plaintiffs Motion for a New
Trial [92] and Defendants' Motion to Strike Plaintiffs motion. [102]
I. BACKGROUND
The Plaintiff, a pro se prisoner, claimed Pontiac Correctional Center Defendants
Warden Randy Pfister, Assistant Warden Guy Pierce and Lieutenant Punke violated his
Eighth Amendment rights based on his living conditions in different cells from
December 2014 to December of 2015. Specifically, Plaintiff alleged his cells: 1) were
covered in feces and blood with inadequate cleaning supplies provided; and 2) had the
lights on for 24 hours a day depriving Plaintiff of sleep. See October 30, 2017 Summary
Judgment Order; Final Pretrial Order, [80].
The matter proceeded to a jury trial on August 21, 2018, and the jury returned
verdicts in favor of the Defendants. See August 21, 2018 Minute Entry; [87]; August 22,
2018 Judgment.
Plaintiff filed his motion for a new trial on September 17, 2018 and the Court
specifically directed Defendants to file a response within 14 days. [92]; October 29, 2018
1

l:15-cv-01498-JES-TSH # 104

Page 2 of 8

Text Order. Defendants then filed two motions for an extension of time which were
both granted. [95,97]; November 16, 2018 Text Order; December 7,2018 Text Order.
On December 11, 2018, Plaintiff filed a letter with the Court noting that his
motion for a new trial went from page #11 to page #13. [98]. Plaintiff asked the Court to
find and add the missing page #12.
Plaintiff does not explain why he waited months to point out the
error in his own filing. The Court only has a copy of the pages currently
filed. If Plaintiff believes another page should be included, he must file the
additional page within seven days of this order. If Plaintiff fails to correct his
filing, the Court will consider the document currently before the Court.
December 11, 2018 Text Order.
Plaintiff then filed a motion to compel asking the Court to order the Clerk of the
Court to add the missing page. [100]. Once again the Plaintiff was advised the Clerk
filed all the pages received. Plaintiffs motion was denied. See January 8, 2019 Text
Order. However, the Court directed the Clerk to provide Plaintiff with another copy of
the motion as received. Plaintiff was advised if he wished to supplement the filing, he
must file his addendum on or before January 22, 2019, and no further extension of time
would be allowed. See January 8, 2019 Text Order.
Defendants filed their third motion for an extension of time to respond to
Plaintiffs motion which was again allowed. [101]. Defendants then filed a Motion to
Strike Plaintiffs Motion for a New Trial. [102].
Defendants ask the Court to strike Plaintiffs motion because he "failed to
comply" with the Court order to supplement his motion. [102, p. 2]. Defendants
misstate the Court's previous orders. The Court allowed Plaintiff additional time if he

2

l:15-cv-01498-JES-TSH #104

Page 3 of 8

chose to supplement his motion. Plaintiff chose not to file anything further. Therefore,
the motion to strike is denied. [102].
The Court also notes it is not clear whether a page is missing from Plaintiff s
motion or the pages were mis-numbered. The argument on page #13 is a continuation
of the argument on page #11. However, even if a page is missing, Plaintiff was given
several months to correct the error and chose not to file anything further.
Given the amount of time already allowed, the Court will consider the motion
for new trial without any additional supplementation by Plaintiff and without any
further response by Defendants.
II. MOTION FOR A NEW TRIAL
Plaintiff argues he is entitled to a new trial because the verdict was against the
manifest weight of the evidence, he was not treated fairly at trial, the court erred in
some rulings, and Plaintiff was not aware he could ask for the jury to be polled after the
verdict.
" [T]he district court has the power to get a general sense of the weight of the
evidence, assessing the credibility of the witnesses and the comparative strength of the
facts put forth at trial." Mejia v. Cook County; III., 650 F.3d 631,633 (7th Cir. 2011).
However, "[s]ince the credibility of witnesses is peculiarly for the jury, it is an invasion
of the jury's province to grant a new trial merely because the evidence was sharply in
conflict." Whitehead v. Bond, 680 F.3d 919, 928 (7th Cir. 2012). "The standard for granting
a new trial is, thus, relatively high and a motion requesting as much will only be
granted 'when the record shows that the jury’s verdict resulted in a miscarriage of
3

l:15-cv-01498-JES-TSH # 104

Page 4 of 8

justice or where the verdict, on the record, cries out to be overturned or shocks our
conscience/" G&G Closed Circuit Events, LLC v. Castillo, 2019 WL 3554228, at *4 (N.D.I11.
Aug. 5,2019) quoting Whitehead, 680 F3d. at 927-28.
"In deciding whether a new trial is appropriate on fairness grounds, the Court
must be guided by the principle that 'civil litigants are entitled to a fair trial, not a
perfect one/ and 'a new trial will not be ordered unless there was an error that caused
some prejudice to the substantial rights of the parties/" Reynolds v. Lyerla, 2019 WL
1254764, at *2 (S.D.I11. March 19,2019), quoting Lemons v. Skidmore, 985 F.2d 354,357 (7th
Cir. 1993).
Plaintiff first argues the jury's verdict ignored the evidence presented. For
instance, Plaintiff says his inmate witnesses testified they observed the same conditions
in the cell house. The Defendants admitted the inmates were only given two ounces of
liquid soap a week and one towel to clean. Furthermore, the Defendants toured the cell
houses and spoke to a variety of inmates. Nonetheless, Plaintiff ignores evidence
presented which did not support his claims. For instance, the Defendants testified each
cell is thoroughly checked before an inmate is transferred to a new cell. Inmate porters
check to make sure everything is working, and check on the conditions of the cell. If a
cell has urine, feces, or blood, the cell is cleaned.
Defendants also admit they tour cell houses and if a cell had urine, feces, or
blood, it would be noted and cleaned. In addition, while Plaintiff's inmate witnesses
testified they had seen some of the conditions described by Plaintiff, they did not testify
they observed those conditions in Plaintiff's specific cell. Furthermore, many witnesses
4

l:15-cv-01498-JES-TSH # 104

Page 5 of 8

testified gallery lights were left on, but Plaintiff still had control of the light in his
individual cell. Ultimately, the jury did not believe Plaintiffs testimony that every cell
he occupied over a 12 month period was covered in feces and blood, and variety of
prison officials ignored those conditions. The verdict was supported by evidence
presented at trial.
Plaintiff next disagrees with statements made by Defense counsel in closing
arguments. Plaintiff claims counsel argued Plaintiff did not complain during his first
stay at Pontiac which Plaintiff claims was an irrelevant time period and designed to
make him look untruthful. However, the Court reminded the jury closing arguments
were just argument, not evidence.
Plaintiff also argues the Court should not have allowed evidence of his criminal
convictions or those of his witnesses. In addition, Defendants should not have been
allowed to argue or insinuate Plaintiff and his witnesses were not credible due to their
convictions. Finally, Plaintiff argues the jury knew he was incarcerated because
correctional officers were sitting nearby.
First, the Court granted in part Plaintiff's motion in limine concerning criminal
convictions. See July 20, 2018 Minute Entry; July 20, 2018 Order. Defendants were only
allowed to question witnesses concerning the fact they had a felony conviction, but not
the specific name or details regarding the conviction. The Seventh has approved this
practice of "sanitizing" a prior felony offense. See Schmude v. Tricam Indus., Inc., 556 F.3d
624, 627 (7th Cir.2009). Second, the Court used the Seventh Circuit Pattern Jury
Instruction concerning criminal convictions. Therefore, jurors were specifically advised
5

l:15-cv-01498-JES-TSH # 104

Page 6 of 8

they could only consider a prior conviction to determine whether a witness's testimony
was credible in whole or in part, and for no other purpose. See (Working Jury
Instructions, [83]. Crt #14, Seventh. Cir. Pattern Inst. 1.15); (Final Instructions, [84], p.
12).
Finally, it was plainly clear to the jury Plaintiff had been incarcerated since his
case involved his treatment in prison and he called incarcerated witnesses who knew
Plaintiff in prison. The Court required correctional officers to sit in the vicinity of
Plaintiff for courtroom security. However, Plaintiff was not in an obvious prison
uniform, and did not appear in shackles before the jury. See Maus v. Baker, 641
Fed.Appx. 596, 600 (7th Cir. 2016) (allowing strategically placed security staff near
plaintiff during prisoner trial was allowed because "district court has discretion to use
reasonable measures to maintain order and safety in the courtroom."). Furthermore,
Plaintiff did not raise this issue at trial.
Plaintiff next claims he was not allowed to question the witnesses concerning the
Administrative Code, the Court spoke to him in an "aggressive manner," and the Court
did not provide an instruction concerning the Defendants' failure to produce safety and
sanitation reports. (Plain. Mot., p. 8). The trial transcript belies Plaintiff's claim that he
was not allowed to question the witnesses concerning the Administrative Code and in
fact the references are too numerous to cite. See (Transcript, [99], i.e., p. 39-40, 49-54,5758, 62-63). Plaintiff attempted on several occasions to simple read several
Administrative Directives, whether relevant to his specific claims or not, into the record.

6

l:15-cv-01498-JES-TSH # 104

Page 7 of 8

When Plaintiff makes reference to a specific exchange with the Court, it was
outside the presence of the jury when the Court was again attempting to explain to
Plaintiff the witness had already acknowledged the Administrative Directives and
acknowledged staff had to follow the directives. Nonetheless, Plaintiff had yet to ask
any questions about the witness's knowledge of his particular living conditions. See
(Transcript, [99], p. 82).
Plaintiff next argues the Court should have provided an instruction to the jury
regarding Defendant's failure to provide safety and sanitation reports. Plaintiff did not
submit a jury instruction on this issue. [72, 77, 79]. More important, the trial transcript
demonstrates Plaintiff was able to question the witnesses about the reports, and he
mentions the lack of reports in his closing statements. See (Transcript, [99], i.e., p. 59, 6364,190).
Finally, Plaintiff says he was unaware of his right to poll the jury after the verdict
was read. Plaintiff's argument is moot because the record clearly shows the jurors were
each polled and each affirmed their verdict. See (Transcript, [99], p. 202).
Plaintiff has not demonstrated the verdict was against the manifest weight of the
evidence, he has not demonstrated he was treated unfairly at trial, and he has not
demonstrated any other basis for granting a new trial.
IT IS THEREFORE ORDERED:
1) Defendants' Motion to Strike Plaintiffs Motion for A New Trial is denied.
[102].
2) Plaintiff's Motion for A New Trial is denied. [92].
7

l:15-cv-01498-JES-TSH # 104

Page 8 of 8

Entered this 26th day of August, 2019.

s/ James E. Shadid
JAMES E. SHADID
UNITED STATES DISTRICT JUDGE

8

